                  DEFENSE ENTERPRISE FUND


Report No. D-2000-176                       August 15, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD, Home
  Page at www.dodig.osd.mil or contact the Secondary Reports Distribution Unit of the
  Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
  or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-4932. Ideas and requests can also be mailed to:

                       OAIG-AUD (ATTN: AFTS Audit Suggestions)
                        Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
CTR                   Cooperative Threat Reduction
DEF                   Defense Enterprise Fund
FSU                   Former Soviet Union
WMD                   Weapons of Mass Destruction
                       Office of the Inspector General, DoD
Report No. D-2000-176                                                   August 15, 2000
 (Project No. D2000LG-0031)

                              Defense Enterprise Fund

                                Executive Summary

Introduction. This audit was performed in accordance with Public Law 102-511,
“Freedom for Russia and Emerging Eurasian Democracies and Open Markets Support
Act of 1992,” section 102(d), “Accountability for Funds,” October 24, 1992. This is
one in a series of reports being issued by the Inspector General, DoD, on the policies
and procedures for executing the Cooperative Threat Reduction Program. The
Cooperative Threat Reduction Program was initiated in FY 1992 to reduce the threat
posed by weapons of mass destruction remaining in the territory of the former Soviet
Union. In June 1994, DoD established, through a grant agreement, the Defense
Enterprise Fund to assist Belarus, Kazakhstan, Russia, and Ukraine in the privatization
of defense industries and conversion of military technologies and capabilities for
civilian use. The Departments of Defense and State provided funding of $66.7 million.
Currently, the value of the fund’s assets has declined to $31.3 million.

Objectives. The overall audit objective was to review the policies and procedures
related to the execution of the Cooperative Threat Reduction Program. The specific
objective for this segment of the audit was to assess Cooperative Threat Reduction
Program Office oversight and planning for the Defense Enterprise Fund. A subsequent
report will discuss whether funds obligated under the Cooperative Threat Reduction
Program were used in accordance with agreements made between the United States and
the governments of Belarus, Kazakhstan, Russia, and Ukraine. A subsequent report
will address the adequacy of the management control program.

Results. The Cooperative Threat Reduction Program Office needed to improve
oversight and planning for the Defense Enterprise Fund. As a result, the Cooperative
Threat Reduction Program Office could not effectively evaluate the status of the
Defense Enterprise Fund or plan for the expiration of the grant agreement. In addition,
the fund manager was not able to achieve the revenue and investment objectives in the
Defense Enterprise Fund long-range plan for self-sufficiency.

Summary of Recommendations. We recommend that the Director, Cooperative
Threat Reduction Program Office, ensure the use of a standard review methodology and
document the results of Defense Enterprise Fund semi-annual progress reviews and
visits made to offices of the fund manager and investment sites; establish measurable
performance goals to evaluate the success of the Defense Enterprise Fund; update the
Defense Enterprise Fund long-range plan for self-sufficiency to reflect the current status
of the fund and economic condition of the former Soviet Union; and initiate efforts to
develop an exit strategy for liquidating or selling the Defense Enterprise Fund.

Management Comments. The Deputy Director, Defense Threat Reduction Agency,
concurred with the report’s recommendations and has initiated corrective actions. A
discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.
Table of Contents

Executive Summary                                 i


Introduction
     Background                                   1
     Objectives                                   3

Finding
     Evaluation of the Defense Enterprise Fund    4

Appendixes
     A. Audit Process
          Scope                                  13
          Methodology                            13
          Prior Coverage                         14
     B. Defense Enterprise Fund Investments      15
     C. Report Distribution                      17

Management Comments
     Defense Threat Reduction Agency             19
Background
    Public Law 102-511, “Freedom for Russia and Emerging Eurasian Democracies
    and Open Markets Support Act of 1992,” section 102(d), “Accountability for
    Funds,” October 24, 1992, requires that any agency managing and
    implementing an assistance program for the countries of the former Soviet
    Union (FSU) shall be accountable for any funds made available to it for such a
    program.

    Cooperative Threat Reduction Program. The Cooperative Threat Reduction
    (CTR) Program was initiated in FY 1992 to reduce the threat posed by weapons
    of mass destruction (WMD) remaining in the territory of the FSU. The
    Cooperative Threat Reduction Act of 1993, section 1204, 22 U.S.C. 5953
    (1994), authorizes DoD to establish a private fund devoted to defense
    conversion.1 The Defense Nuclear Agency2 established the fund, and it was
    designated the Defense Enterprise Fund (DEF). The DEF is a not-for-profit
    corporation3 subject to DoD oversight by the CTR Program Office, which is a
    part of the Defense Threat Reduction Agency. The DEF provides financial
    support for commercial initiatives that facilitate the demilitarization of defense
    industries and conversion of military technologies and capabilities to civilian
    activities in eligible countries of the FSU. FSU countries eligible for assistance
    include Belarus,4 Kazakhstan, Russia, and Ukraine.

    Defense Enterprise Fund. DoD provided funds to the DEF through
    Grant No. DNA001-94-J-0004, “Defense Enterprise Fund,” June 21, 1994 (the
    grant agreement). As of April 2000, DoD had provided $51.7 million,5 and the
    Department of State provided $15 million in FY 1997 under the Freedom
    Support Act.6 Upon expiration of the grant agreement in FY 2004, the fund will
    either become self-sufficient or be dissolved. In the event of dissolution, net
    proceeds will either return to the U.S. Government or be distributed to
    non-profit entities established to provide assistance in the FSU. The DEF
    invests U.S. Government funds in ventures that include at least one

    1
        Defense conversion is the transition of personnel or facilities that were formerly involved in
        research, development, production, or operation and support of the defense sector to peaceful,
        civilian activities.
    2
        The Defense Nuclear Agency was renamed the Defense Special Weapons Agency, which was
        subsequently consolidated into the Defense Threat Reduction Agency, effective September 30,
        1998.
    3
        The DEF was legally incorporated in Delaware in March 1994. However, the grant agreement
        requires that the fund remain subject to U.S. Government oversight.
    4
        The DEF has not invested in Belarus since FY 1997 because of human rights violations.
    5
        DoD allocated funds for the DEF through the June 1994 grant agreement and a series of
        amendments from May 1995 through February 1997.
    6
        To assist FSU countries in transitioning to peaceful endeavors, the Freedom Support Act
        authorizes the Department of State to design an assistance and economic cooperation strategy
        with FSU countries. In FY 1997, funding for the DEF shifted to the Department of State
        under the Freedom Support Act. The Department of State agreed that DoD would maintain
        DEF oversight responsibilities.



                                                  1
western7 business partner and an FSU business partner formerly engaged in the
production of, or support for, WMD or other defense-related endeavors. The
DEF makes loans and equity investments. See Appendix B for a discussion of
current DEF investments and defense conversion achievements.

Fund Manager. At the inception of the fund in June 1994, the DEF did not
employ a private fund manager. In February 1998, the DEF contracted with a
private company to manage the fund. That company remained the fund manager
until October 1999, when the DEF contracted with a New York-based
investment manager to manage the fund through FY 2004 when the grant
agreement expires. The DEF hired the current fund manager for its expertise in
the Russian investment arena. As the fund manager, the company assumed
responsibility for selecting appropriate investment proposals, identifying
compatible investment partners, and providing management expertise. The
company participates in all aspects of DEF investment management, to include:

           •    monitoring the status of DEF investments;

           •    consulting with the management staff of companies in which the DEF
                has invested and providing advice on financial and operational
                management strategies;

           •    planning and negotiating to maximize the value of DEF investments;

           •    analyzing, identifying, performing due diligence, and structuring and
                negotiating new DEF investments in the region or, making additional
                investments in companies in which the DEF has invested; and

           •    working with the DEF to attract private capital for investment in the
                region, to the extent that economic conditions in the region permit.

In addition, the company is responsible for planning for DEF self-sufficiency
upon expiration of the grant agreement in FY 2004 or developing an exit
strategy for liquidating DEF investments and dissolving the fund. The intent of
the grant agreement was for the DEF to become a private, self-sufficient fund
by attracting private capital. Essentially, either the fund would become
financially independent and generate revenue that could be used to make new
investments or it would be dissolved.

Economic Conditions in Russia. Early in 1998 when the Russian government
significantly increased interest rates to support the value of the ruble8 and to
attract and preserve foreign capital inflows to finance the budget deficit, Russia
felt the impact of economic crisis. The high interest rates created a liquidity
crisis that squeezed working capital financing throughout the Russian economy.
The monetary policy collapsed in August 1998 when the Russian government
implemented a 90-day moratorium on bank and company hard currency debt
repayments, began negotiations to restructure government debt, and devalued
7
    The grant agreement requires that DEF investments include at least one business partner from
    outside the FSU; the partner is typically a U.S. firm.
8
    The ruble is the Russian currency.



                                             2
     the ruble. The economy experienced bank failures, a breakdown in commercial
     processes, sharp reductions in business activities, and scarcity of investment and
     working capital. All DEF investments in Russia were effected by the dramatic
     decline in the Russian economy and financial markets. As of March 2000, the
     gross investment value of the DEF portfolio was estimated to be only
     $31.3 million.



Objectives
     The overall audit objective was to review the policies and procedures related to
     the execution of the CTR Program. The specific objective for this segment of
     the audit was to assess CTR Program Office oversight and planning for the
     DEF. Subsequent audits will determine whether funds obligated under the
     CTR Program were used in accordance with agreements made between the
     United States and the governments of Belarus, Kazakhstan, Russia, and
     Ukraine. See Appendix A for a discussion of the audit scope, methodology, and
     prior coverage.




                                         3
            Evaluation of the Defense Enterprise
            Fund
            The CTR Program Office needed to improve oversight and planning for
            the DEF. This occurred because the CTR Program Office did not:

                    •   ensure the usefulness of semi-annual progress reviews and
                        visits made to offices of the fund manager and investment
                        sites by using consistent review approaches and documenting
                        review results;

                    •   develop measurable performance goals to evaluate the success
                        of DEF investments; and

                    •   update the DEF long-range plan for self-sufficiency to reflect
                        current economic conditions in the FSU and initiate efforts to
                        develop an exit strategy.

            As a result, the CTR Program Office could not effectively evaluate the
            status of the DEF or plan for the expiration of the grant agreement. In
            addition, the fund manager was not able to achieve the revenue and
            investment objectives in the DEF long-range plan for self-sufficiency.



Criteria
     The Grant Agreement. The grant agreement authorizes the DEF to provide
     loans and make equity investments in defense conversion projects that involve at
     least one business partner from outside the FSU and enterprises in FSU
     countries previously involved in the production of, or support for, WMD or
     other defense-related endeavors. The DoD, along with several U.S.
     Government agencies, developed a list of WMD-related firms that were
     candidates for defense conversion for each of the eligible FSU countries. The
     fund manager is required to select firms from one of the lists of WMD-related
     enterprises or notify the CTR Program Office if a firm in which it seeks to
     invest is not on one of the lists. The DEF may also make investments in
     facilities and personnel currently or formerly associated with other elements of
     the FSU defense sector converting to civilian activities. Other elements include
     command, control, and communications equipment; nuclear-equipped aircraft
     and guided missiles; and strategic defense systems such as anti-ballistic missiles
     and systems to counter strategic bombers.

     Expiration of the Grant Agreement. When the grant agreement expires on
     June 20, 2004, the grant states net proceeds will either return to the U.S.
     Government or be distributed to the non-profit entities established to provide
     assistance in the FSU. In addition, the intent of the grant agreement was that
     the DEF would become a private, self-sufficient fund. The grant permits the
     sale of the fund as an entity. However, if the sale of the fund in its entirety is


                                          4
    not possible, the CTR Program Office must ensure that DEF investments are
    liquidated and that the funds are remitted to the U.S. Government or distributed
    to non-profit entities established to provide assistance in the FSU. The grant
    agreement also states that DoD must notify the fund manager at least 1 year in
    advance of the termination commencement date. Once the termination
    commencement date arrives, the fund manager cannot make any new
    commitments or investments and DEF affairs are to be concluded and assets
    sold.

    Performance Measures. The Chief Financial Officers Act of 1990,
    November 15, 1990, as amended, requires Federal organizations to
    systematically measure performance. As a result of that requirement, the
    Federal Accounting Standards Advisory Board issued the Statement of Federal
    Financial Accounting Standard No. 4 (Financial Accounting Standard No. 4),
    “Managerial Cost Accounting Concepts and Standards for the Federal
    Government,” July 31, 1995, which contains guidance aimed at providing
    reliable and timely information on the full cost of Federal programs and their
    activities and outputs. Financial Accounting Standard No. 4 requires the
    development of performance measures and goals to which the measures can be
    compared as a means of reporting the efficiency, effectiveness, and results of a
    program.



Monitoring DEF Performance
    The CTR Program Office needed to improve oversight and planning for the
    DEF.

    Semi-Annual Progress Reviews. The CTR Program Office participated in
    semi-annual progress reviews with the fund manager. However, from FY 1997
    through FY 2000, CTR Program officials maintained notes from only one
    review. In addition, CTR Program officials did not document answers to any of
    the questions they prepared to ask the fund manager during the reviews. The
    grant agreement requires that the CTR Program Office hold semi-annual
    progress reviews to exchange information with the fund manager about the
    overall financial health and performance of the fund, compliance with the terms
    of the grant agreement, and resolution of problems. The briefing charts
    provided by the fund manager indicated reviews covered DEF operating
    highlights, potential for self-sufficiency, investment performance against
    benchmarks, schedules for CTR Program Office visits, and project status. The
    CTR Program officials stated that the information collected during the
    semi-annual progress reviews formed a basis for determining whether the goals
    in the grant agreement were met. However, there was minimal evidence that
    CTR Program officials had evaluated accomplishments of the fund or
    documented lessons learned.

    Office and Site Visits. CTR Program officials visited the offices of the fund
    manager and investment sites. However, the visits did not provide sufficient
    information to determine whether the DEF was meeting the goals set forth in the


                                        5
    grant agreement. Although the CTR Program Office had established a checklist
    of items to be reviewed during site visits, Program officials maintained only
    three undated, but otherwise completed, checklists for the nine site visits held
    during FY 1997 through FY 1999. Site visit checklist items included the
    previous activity of the FSU partner, the new commercial endeavor of the
    investment, approximate size of facilities converted, approximate number of
    former defense workers converted, and the DEF investment affect on
    conversion activities. In addition, CTR Program officials did not document the
    results of meetings held with the fund manager during office visits. The grant
    agreement requires CTR Program officials perform office visits and conduct
    approximately three site visits to DEF investments per year. During office
    visits, the fund manager and CTR Program officials discussed the overall status
    of the fund and the progress of specific investments. During site visits,
    CTR Program officials stated they visited the facilities of investments in the
    FSU and had an opportunity to speak with personnel who work for enterprises
    in which the DEF had invested. In addition, we observed that CTR Program
    officials toured facilities and watched employees who formerly produced WMD
    now working to create new commercial items in facilities that once supported
    the defense sector of the FSU. However, without adequate documentation of
    discussions and results from office visits and observations from site visits, the
    CTR Program Office did not have sufficient documentation to show whether and
    how they had evaluated the accomplishments of the fund.

    Without adequate documentation of DEF matters, CTR Program officials may
    not be able to ensure continuity of operations from one CTR Program official to
    the next. Since FY 1997, two officials had handled the majority of DEF
    matters, to include participating in semi-annual progress reviews and office and
    site visits. Participating in those reviews and visits were subjective methods that
    the CTR Program Office used to monitor the performance of the DEF.
    However, without adequate documentation of discussions and results from the
    semi-annual progress reviews and office and site visits, the CTR Program Office
    may not have sufficient information to determine whether the DEF was meeting
    the goals set forth in the grant agreement. In addition, the CTR Program Office
    may not have sufficient information to determine the most appropriate approach
    for developing an exit strategy and disposing of the fund.



Evaluating DEF Performance
    The CTR Program Office needed to improve oversight and planning for the
    DEF. This occurred because the CTR Program Office did not develop
    measurable performance goals to evaluate the success of DEF investments.

    Meeting Goals in the Grant Agreement. The CTR Program Office did not
    have sufficient information to determine whether the DEF was achieving the
    goals set forth in the grant agreement. The United States provided
    $66.7 million to the DEF for investment in FSU companies that had been




                                         6
associated with the manufacture of WMD. According to the grant agreement,
the success of the DEF would be determined by the extent to which the fund is
able to meet or contribute to the following goals:

       •   successful demilitarization of an FSU defense industry and
           conversion of its military technologies and capabilities into civilian
           activities;

       •   successful restructuring, or strengthening, of a number of privatized
           FSU firms derived from industries and capabilities of the
           military-industrial complex of the FSU;

       •   development of a number of key joint business initiatives between the
           U.S. companies and FSU private companies; and

       •   generation of projects that will leverage U.S. private-sector capital.

DEF Benchmarks. CTR Program officials developed performance measures to
evaluate the success of the fund; however, they did not establish performance
goals against which DEF achievements could be compared. Financial
Accounting Standard No. 4 requires development of performance measures as a
means for reporting the efficiency, effectiveness, and results of a program. In
FY 1997, the CTR Program Office and the fund manager collaborated to
develop performance measures for the fund. However, those performance
measures did not include quantifiable performance goals but rather were general
categories for which each investment should contribute and the CTR Program
Office was responsible for monitoring. In addition, CTR Program officials did
not request that the fund manager verify the data reported during semi-annual
progress reviews. The categories included square meters converted, former
defense workers converted, percentage of the fund that was invested, leveraging
of U.S. private funds, and the DEF net worth.

        Square Meters Converted. The fund manager reported during the
semi-annual progress reviews the estimated floor space converted from former
manufacture of WMD to private enterprise as a result of DEF investments. As
of March 2000, the fund manager estimated that 36,405 square meters were
converted as a result of current DEF investments. However, CTR Program
officials had not established a measurable performance goal against which the
estimate could be compared. In addition, the CTR Program Office did not
request that the fund manager verify the estimate of square meters converted,
although that estimate had not changed since March 1998. Further, the fund
manager did not report on whether defense conversions that were achieved as a
result of DEF investments were in fact sustained. For example, in March 2000
one of the investments was reported to have converted 10,050 square meters of
floor space for civilian use. However, the fund manager stated that the
company suspended production activities in FY 1999. The fund manager was
confident that the company would resume operations; however, as of
March 2000, the company had not resumed production activities.




                                     7
                   Former Defense Workers Converted. The fund manager reported
           during the semi-annual progress reviews an estimate of former WMD workers
           now employed as a result of DEF investments. As of March 2000, the fund
           manager estimated that 2,030 workers were converted as a result of current
           DEF investments. However, CTR Program officials had not established a
           measurable performance goal against which the estimate could be compared. In
           addition, the CTR Program Office did not request that the fund manager verify
           the estimate of defense workers converted, although that estimate had not
           changed since March 1998. Further, the fund manager did not report on
           whether defense conversions that were achieved as a result of DEF investments
           were in fact sustained. For example, in March 2000 one of the investments was
           reported to have employed 42 former WMD workers. However, the fund
           manager stated that the company suspended production activities in FY 1999
           and only 1 worker was employed. The fund manager was confident that the
           company would resume operations and employ more people; however, as of
           March 2000, the company had not resumed production activities or employed
           more people.

                   Percentage of Fund Invested. The fund manager reported that the DEF
           was fully invested in the current portfolio. The DEF had invested $38.3 million
           of the $66.7 million provided by the U.S. Government in the current portfolio
           and had used $32.6 million for expenses incurred since inception of the fund in
           June 1994.9 Though CTR Program officials and the fund manager discussed
           during the semi-annual progress reviews the high expense rate the DEF
           incurred, the CTR Program Office did not establish an objective, quantifiable,
           and measurable performance measure that would assist in determining whether
           the expense rate was too high.

                  Leveraging U.S. Private Funds. For the investments that had achieved
           defense conversions as of March 2000, the fund manager estimated
           approximately $737 million in private capital would be required to complete the
           projects. However, CTR Program officials had not established a measurable
           performance goal against which the ratio of U.S. Government funds to private
           funds could be compared.
                  DEF Net Worth. According to the benchmark categories, the actual
           end-of-year DEF net worth should be compared with other similar funds to
           gauge success. However, the fund manager did not provide figures to the
           CTR Program Office on the end-of-year net worth of similar funds so
           CTR Program officials could compare the data and effectively evaluate the DEF
           net worth. In addition, CTR Program officials had not established a measurable
           performance goal against which the DEF net worth could be compared.

           The CTR Program Office could not effectively evaluate the performance of the
           DEF because the Program Office did not establish performance goals against
           which actual defense conversion achievements and performance of the fund
           could be compared. In addition, the CTR Program officials had not requested
           that the fund manager verify estimates provided during semi-annual progress

9
    The $4.2 million difference between the $66.7 million provided and the $70.9 million invested and used
    for expenses was attributable to interest and profits and losses on investments.



                                                      8
    reviews and had not established a performance measure to address the cost of
    operating the fund. The CTR Program Office could not effectively monitor the
    status of individual investments or the overall status of the DEF without
    properly evaluating the performance of the fund against measurable performance
    goals.



Long-Range Planning for the DEF
    The CTR Program Office needed to improve oversight and planning for the
    DEF. This occurred because the CTR Program Office did not update the DEF
    long-range plan for self-sufficiency to reflect current economic conditions in the
    FSU and did not initiate efforts to develop an exit strategy.

    DEF Long-Range Plan for Self-Sufficiency. The CTR Program Office did not
    ensure the fund manager had updated the DEF long-range plan for
    self-sufficiency to reflect current economic conditions in the FSU. A May 1995
    amendment to the grant agreement states that the DEF must produce a
    long-range plan to address how the fund would seek to become self-sufficient
    before expiration of the grant agreement in FY 2004. The fund manager
    prepared the original DEF long-range plan for self-sufficiency in FY 1997. The
    DEF is required to update the plan annually, however, the fund manager did not
    provide an updated plan. Although CTR Program officials stated they used
    information gathered during the semi-annual progress reviews to update the
    DEF long-range plan for self-sufficiency, the CTR Program Office could not
    provide an updated plan.

    Exit Strategy. The CTR Program Office did not initiate efforts to develop an
    exit strategy. The disposition of the fund will depend on the status of each
    investment in the fund. However, as of April 2000, the CTR Program Office
    had not determined whether the fund would be sold in its entirety or whether
    each investment would be sold separately. The grant agreement requires that
    the CTR Program Office notify the DEF at least 1 year in advance of the
    termination commencement date. By the termination commencement date, the
    fund manager is required to provide a plan for the disposition of the fund to the
    CTR Program Office for approval. However, as of April 2000, neither the
    CTR Program Office nor the fund manager had begun to develop a plan.
    According to the fund manager, although the grant does not expire until
    FY 2004, investments will have to be positioned for sale. Therefore, to
    maximize the funds to be returned to the U.S. Government or otherwise
    distributed, the CTR Program Office should initiate efforts to plan for the
    disposition of the fund.




                                         9
DEF Success and Sustainability
    The CTR Program Office could not effectively evaluate the status of the DEF or
    plan for expiration of the grant agreement. In addition, the $66.7 million that
    the U.S. Government invested in the DEF could be diminished beyond its
    current estimated $31.3 million value. Also, the fund manager was not able to
    achieve the revenue and investment objectives in the DEF long-range plan for
    self-sufficiency.

    Investment Problems. The U.S. Government investment could decline further
    in value if DEF management is not more aggressive. For example, the
    CTR Program Office has not taken action to resolve a problem with one of the
    investments that accounts for nearly $6 million, or 19.2 percent, of the gross
    estimated investment value of the fund. Since FY 1997, the DEF has reported
    to the CTR Program Office during semi-annual progress reviews difficulties
    with investments. However, it was not until our review in March 2000 that the
    CTR Program Office took an active interest in the problems with that
    investment. The company with which the fund has had difficulties first received
    DEF funds in 1996 to assemble and distribute personal computer products. The
    company had previously been involved in the production of military electronics.
    In a January 1998 report on the company, requested by the fund manager, Ernst
    & Young stated there were difficulties obtaining detailed records to support the
    financial statements of the company and a significant part of the operations were
    not being reported. In addition, the report stated that the financial statements
    did not include all transactions or balances as appropriate for accounts
    receivable, cash, cost of sales, fixed assets, inventories, salaries, and sales.
    Specifically, the report pointed out that the company:

           •   estimated cash balances and used unofficial and unrecorded cash
               transactions;

           •   recorded unsubstantiated purchases in financial statements to claim
               additional value-added tax reimbursement;

           •   had not included all fixed assets or salaries in the financial
               statements;

           •   could not provide a list of accounts receivable, a detailed fixed asset
               listing, or documentation of inventory verification to support the
               financial statements prepared for the DEF and had not made
               adjustments to the general ledger to reconcile inventory differences;
               and

           •   recorded sales on a cash basis and adjusted accounts receivable in
               such a manner that the financial statements may have incorrectly
               included both opening and closing accounts receivable balances.

    Though the DEF informed the CTR Program Office of the Ernst & Young
    report during a March 1998 semi-annual progress review, CTR Program
    officials did not obtain a copy of the report at that time and did not offer


                                         10
guidance on the disposition of the investment. Through March 2000, the fund
manager continued reporting the problems with the DEF investment to
CTR Program officials during the semi-annual progress reviews. However, as
of April 2000, the CTR Program Office had not taken action regarding the
situation. The U.S. Government investment in the company was nearly
$6 million. As of April 2000, the fund manager estimated that the investment in
this company was worth only $1 million.

Achieving Objectives of the DEF Long Range Plan for Self-Sufficiency. The
fund manager was not able to achieve the revenue and investment objectives of
the DEF long-range plan for self-sufficiency. The objectives of the DEF
long-range plan for self-sufficiency were to generate adequate revenues to
support DEF operating costs while allowing the DEF to expand its investment
activities. The CTR Program Office did not ensure that the fund manager
updated the DEF long-range plan for self-sufficiency to reflect the impact that
the current economic conditions in the FSU have had on the fund.

        Revenues and Expenses. The fund manager was not able to achieve the
revenue objectives in the DEF long-range plan for self-sufficiency. According
to the DEF long-range plan for self-sufficiency, investments were expected to
produce $100 million during FY 1997 through FY 2001 while at the same time
provide for operating expenses. However, data provided at the semi-annual
progress review in March 2000 indicated that the fund had only generated
returns on investments of $4.6 million, far less than planned, while incurring
expenses of $32.6 million. The fund manager did not meet the revenue
objectives in the DEF long-range plan for self-sufficiency and did not update the
plan to reflect more realistic revenue objectives based on the current economic
conditions in the FSU.

        Investments Activities. The fund manager was not able to achieve the
investment objectives in the DEF long-range plan for self-sufficiency.
According to the DEF long-range plan for self-sufficiency, investments would
be valued at approximately $170 million upon expiration of the grant agreement
in FY 2004. However, as of March 2000, the fund manager estimated that the
DEF portfolio had a gross investment value of only $31.3 million, far less than
the investment objective in the DEF long-range plan for self-sufficiency. The
fund manager did not update the DEF long-range plan for self-sufficiency to
reflect more realistic investment objectives based on the current economic
conditions in the FSU.

The fund manager was unable to meet the objectives in the DEF long-range plan
for self-sufficiency, and the CTR Program Office did not ensure the plan was
updated to acknowledge that it was unlikely the original objectives would be
achieved considering the current status of the fund and the time remaining until
the grant agreement expires.




                                   11
Conclusion
    The grant agreement indicated that the success of the DEF would be gauged on
    the extent to which the DEF was able to demilitarize the FSU military-industrial
    complex, strengthen privatized firms derived from the FSU military-industrial
    complex, and attract U.S. private sector capital for joint ventures with FSU
    private companies. The CTR Program Office, through its semi-annual progress
    reviews and office and site visits, had not documented the progress the DEF had
    made in achieving those goals. In addition, the CTR Program Office did not
    develop performance goals that would have aided in evaluating the success of
    the DEF in achieving those goals or objectives in the DEF long-range plan for
    self-sufficiency. Without measurable performance goals, the results of the DEF
    could not be efficiently and effectively reported.



Recommendations and Management Comments
    We recommend that the Director, Cooperative Threat Reduction Program
    Office:

            1. Ensure the use of a standard review methodology and document
    the results of Defense Enterprise Fund semi-annual progress reviews and
    visits made to offices of the fund manager and investment sites.

           2. Establish measurable performance goals to evaluate the success of
    the Defense Enterprise Fund.

            3. Update the Defense Enterprise Fund long-range plan for
    self-sufficiency to reflect the current status of the fund and the economic
    condition of the former Soviet Union.

           4. Initiate efforts to develop an exit strategy for liquidating or selling
    the Defense Enterprise Fund.

    Management Comments. The Deputy Director, Defense Threat Reduction
    Agency, concurred with the report’s recommendations, stating that DEF project
    managers will issue a report to management 10 days after a progress review or
    site visit; the Defense Threat Reduction Agency will work with industry to
    establish additional measurable goals and monitor DEF management’s progress
    in meeting those goals by the end of 2000; DEF management will provide an
    updated long-range plan for self-sufficiency by November 1, 2000; and the
    Defense Threat Reduction Agency, with the involvement of DEF management,
    will develop an exit strategy.




                                       12
Appendix A. Audit Process

Scope
    We evaluated CTR Program Office oversight of the DEF. We interviewed
    CTR Program officials who were responsible for planning for the DEF. We
    reviewed the DEF grant agreement and amendments, corporation materials,
    semi-annual progress reviews, benchmarks, the DEF long-range plan for
    self-sufficiency, fund management agreement, and DEF reports. In addition,
    we visited the New York office of the fund manager to interview the President
    of the DEF and to review shareholder agreements and annual reports and audits
    for compliance with the grant agreement. Also, we visited the Moscow office
    of the fund manager and three DEF investments located in Moscow and Saint
    Petersburg, Russia, to observe events during CTR Program Office site visits.
    The documentation we reviewed covered the period from September 1989
    through March 2000.

    DoD-wide Corporate Level Goals. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to the achievement of the following
    goal and subordinate performance goal.

           FY 2000 DoD Corporate Level Goal 1: Shape the international
           environment and respond to the full spectrum of crises by providing
           appropriately sized, positioned, and mobile forces. (00-DoD-1.1)
           FY 2000 Subordinate Performance Goal 1.1: Support U.S. regional
           security alliances through military-to-military contacts and the routine
           presence of ready forces overseas, maintained at force levels determined
           by the Quadrennial Defense Review. (00-DoD-1.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



Methodology
    Audit Type, Dates, and Standards. We performed this program audit from
    January through May 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We did not use computer-processed data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and within four private companies. Further details
    are available on request.


                                       13
     Management Control Program. We did not address the adequacy of the
     overall CTR Program Office management control program in this report. The
     adequacy of the overall CTR Program Office management control program will
     be addressed in a subsequent report.



Prior Coverage
     During the last 5 years, the General Accounting Office issued one report related
     to the DEF.

General Accounting Office
     General Accounting Office Report No. NSIAD-97-101 (OSD Case No. 1308),
     “Cooperative Threat Reduction: Status of Defense Conversion Efforts in the
     Former Soviet Union,” April 11, 1997




                                        14
Appendix B. Defense Enterprise Fund
            Investments
   As of March 2000, the U.S. Government had provided $66.7 million in grant
   funds to the DEF and the current DEF portfolio consisted of 12 investments.
   The fund manager estimated that, after write-offs, the current value of the
   12 investments was $31.3 million. Five of the 12 investments were active: 2 in
   Kazakhstan and 3 in Russia. The DEF has sold one investment and written off
   the interest in the other six investments. The table below summarizes the
   12 investments, the defense conversion achievements of those investments as of
   March 2000, and the amount of grant funds in each investment.

                                                DEF Investments

                                                                                              Grant Funds
                                                                   Workers Space Converted Invested1
     Investment                                   Location        Converted2 (square meters)2 (thousands)
     Beryllium Component Technology               Russia            N/A3           N/A         $ 200
     Impregnated Abrasive Instruments             Russia            N/A            N/A             200
     KK Interconnect                              Kazakhstan          27         3,600           3,050
     Liform                                       Ukraine             42        10,050             800
     Metallurgicheski Zavod Ametist               Russia            N/A            N/A           5,039
     MPS – Telekom4                               Russia           1,240         7,900           9,565
     Nursat                                       Kazakhstan          69         9,630           3,000
     RAMEC                                        Russia             152         3,500           5,988
     Rusnet Labs                                  Russia             200         1,725           5,000
     Russian-American Ionized Energy              Russia            N/A            N/A             800
        Services
   KRussian Telecommunications Network            Russia              300                  0             4,500
   KSukhoi Naptha International                   Russia             N/A                N/A                200
        Subtotal                                                    2,030             36,405           $38,322
   I        Write-offs                                                                                  (6,985)
                Total                                                                                  $31,337
    1
      The total of equity investments in and loans and letters of credit provided by the fund manager to investee
    companies.
    2
      Estimates from business plan projections of head count and defense facilities being converted to commercial
    use.
    3
        Not applicable.
    4
     In March 2000, MPS Telekom was in the process of being sold; the fund manager expects to recover
    approximately $6.0 million of the DEF investment.


   The five active DEF investments as of March 2000 were KK Interconnect,
   Nursat, RAMEC, Rusnet Labs, and the Russian Telecommunications Network.

   KK Interconnect. The DEF invested in KK Interconnect in September 1996.
   KK Interconnect was previously involved in nuclear weapons testing. As a
   result of the DEF investment, KK Interconnect became a manufacturer of


                                                  15
commercial printed circuit boards and products that use circuit boards. As of
March 2000, the DEF had $3.05 million in the investment and estimated that the
investment had converted 27 former nuclear scientists and personnel and
3,600 square meters of former nuclear weapons testing sites and grounds to
private enterprise.

Nursat. The DEF invested in Nursat in June 1996. Nursat was previously
involved in satellite tracking. As a result of the DEF investment, Nursat
became a commercial telecommunication service provider. As of March 2000,
the DEF had $3 million in the investment and estimated that the investment had
converted 69 former defense workers and 9,630 square meters of a former
satellite tracking facility to private enterprise.

RAMEC. The DEF invested in RAMEC in August 1996. RAMEC had
previously produced military electronics. As a result of the DEF investment,
RAMEC became an assembler and distributor of personal computer products.
As of March 2000, the DEF had nearly $6 million in the investment and
estimated that the investment had converted 152 former defense workers and
3,500 square meters of former military production plant space to private
enterprise.

Rusnet Labs. The DEF invested in Rusnet Labs in June 1997. The company
was previously involved in maintaining strategic command and control
networks. As a result of the DEF investment, Rusnet Labs became a
telecommunication-engineering service provider. As of March 2000, the DEF
had $5 million in the investment and estimated that the investment had converted
200 former defense telecommunication engineers and 1,725 square meters of a
former military communication facility to private enterprise.

Russian Telecommunications Network. The DEF invested in the Russian
Telecommunications Network in December 1997. The Russian
Telecommunications Network was previously involved in military
communications. As a result of the DEF investment, the company became a
commercial telephone service provider. As of March 2000, the DEF had
$4.5 million in the investment and estimated that the investment had converted
300 former defense engineers to private enterprise.




                                   16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (Strategy and Threat Reduction)
  Deputy Assistant Secretary of Defense (Threat Reduction Policy)
     Director, Cooperative Threat Reduction Policy
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center
Department of State
  Coordinator of U.S. Assistance to the New Independent States




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations




                                       18
Defense Threat Reduction Agency
Comments




               19
20
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, produced this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

  Shelton R. Young
  Catherine M. Schneiter
  Evelyn R. Klemstine
  Cheryl L. Snyder
  Michael T. Brant
